TN

OCKLE

2311 Douglas Street A : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B food an contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-970

RETAIL READY CAREER CENTER, INC.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF OF THE
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 2996 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2 Ist day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

i ee Loos Ondo he, Bh

My Comm. Exp. September 5, 2023
Affiant

    

Notary Public 39826
